           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

                  OFFICE OF INSPECTOR GENERAL
       STATEMENT OF EVERETT L. MOSLEY, INSPECTOR GENERAL

       BEFORE THE HOUSE COMMITTEE ON GOVERNMENT REFORM’S
        SUBCOMMITTEE ON GOVERNMENT EFFICIENCY, FINANCIAL

           MANAGEMENT AND INTERGOVERNMENTAL RELATIONS
                          MAY 8, 2001


MR. CHAIRMAN, OTHER COMMITTEE MEMBERS, AND COMMITTEE STAFF, GOOD
MORNING AND THANK YOU FOR THE OPPORTUNITY TO APPEAR BEFORE YOU
TODAY. I HAVE WITH ME TODAY MR. BRUCE N. CRANDLEMIRE, WHO IS OUR
DEPUTY ASSISTANT INSPECTOR GENERAL FOR AUDIT WITH RESPONSIBILITY
FOR THE FINANCIAL STATEMENT AUDIT PROCESS AT THE U.S. AGENCY FOR
INTERNATIONAL DEVELOPMENT (USAID). WE ARE PLEASED TO BE HERE
TODAY AND PROVIDE TESTIMONY AND ANSWER QUESTIONS ON THE RESULTS
OF THE OFFICE OF INSPECTOR GENERAL’S (OIG) AUDIT OF USAID’S
FISCAL YEAR 2000 FINANCIAL STATEMENTS AND ACTIONS NEEDED TO
CORRECT LONG-STANDING PROBLEMS IN USAID’S FINANCIAL MANAGEMENT
SYSTEMS. AS DOCUMENTED, WE WERE UNABLE TO RENDER OPINIONS ON
USAID’S ANNUAL FINANCIAL STATEMENTS FOR THE LAST FOUR YEARS.
 IN THIS TESTIMONY, I WOULD LIKE TO DISCUSS THE RESULTS OF OUR
   AUDIT OF USAID’S FISCAL YEAR 2000 FINANCIAL STATEMENTS AND
USAID’S CORRECTIVE ACTIONS TO DATE. I WOULD ALSO LIKE TO DISCUSS
 WHAT REMAINS TO BE DONE FROM USAID’S PERSPECTIVE OF CORRECTING
SYSTEM PROBLEMS AND PREPARING AUDITABLE FINANCIAL STATEMENTS FOR
  FISCAL YEAR 2001 AND FROM AN OIG PERSPECTIVE OF AUDITING THE
 FINANCIAL STATEMENTS. AT THE CONCLUSION OF THIS TESTIMONY, WE
      WILL BE PLEASED TO ANSWER ANY QUESTIONS YOU MAY HAVE.

UNDER A SERIES OF LEGISLATIVE INITIATIVES, THE FEDERAL
GOVERNMENT HAS EMBARKED ON A COURSE TO INCREASE THE QUALITY OF
FINANCIAL INFORMATION USED TO MANAGE ITS ACTIVITIES. THESE
INITIATIVES INCLUDE THE CHIEF FINANCIAL OFFICERS (CFO) ACT OF
1990, THE GOVERNMENT MANAGEMENT REFORM ACT (GMRA) OF 1994, AND
THE FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA) OF
1996. EACH OF THESE LAWS HAS IMPACTED THE PREPARATION AND AUDIT
OF ANNUAL FINANCIAL STATEMENTS BY FEDERAL AGENCIES.

THE OVERWHELMING THEME WOVEN THROUGH THESE LEGISLATIVE
INITIATIVES IS THAT THE FEDERAL GOVERNMENT NEEDS TO HAVE GOOD
FINANCIAL SYSTEMS WHICH WILL ENABLE THEM TO PRODUCE COMPLETE,
CONSISTENT, RELIABLE, AND TIMELY INFORMATION THROUGHOUT THE
FISCAL YEAR. THE AUDIT OPINION ON THE FINANCIAL STATEMENTS,
WHICH REPRESENTS THE STATUS OF FINANCIAL OPERATIONS AT A
SPECIFIC POINT IN TIME, IS OR SHOULD BE A SIMPLE BY-PRODUCT OF
GOOD FINANCIAL SYSTEMS BECAUSE THE OPINION IS BASED ON EVERY-DAY
INFORMATION CONTAINED IN ITS ACCOUNTING RECORDS. WE DO NOT
BELIEVE THAT THE LEGISLATION CONTEMPLATED THE USE OF HEROIC
MEASURES TO PREPARE AND AUDIT A SET OF FINANCIAL STATEMENTS
WHICH DO NOT REFLECT THE INFORMATION NORMALLY PRESENT AND USED
TO MANAGE OPERATIONS.

FOR EXAMPLE, IT IS POSSIBLE FOR AN AGENCY THAT HAS INADEQUATE
FINANCIAL SYSTEMS TO RECEIVE AN OPINION——EVEN AN UNQUALIFIED
OPINION. HOWEVER, TO DO SO, TWO THINGS WOULD HAVE TO HAPPEN.
FIRST, THE AGENCY WOULD HAVE TO INVEST SIGNIFICANT TIME AND
MONEY TO CREATE "WORK-AROUND PROCEDURES" TO ACHIEVE ACCURATE
INFORMATION THAT THE SYSTEMS COULD NOT PRODUCE. SECOND, THE OIG
WOULD HAVE TO INVEST SIGNIFICANT TIME AND MONEY TO PERFORM
EXTENSIVE TESTING OF THESE PROCEDURES DUE TO THE INCREASE IN
AUDIT RISK ASSOCIATED WITH UNRELIABLE SYSTEMS.

IN MY OPINION, IT WOULD BE A WASTE OF RESOURCES AND A
CONTRADICTION TO THE LEGISLATIVE INTENT FOR AN AGENCY TO GO
THROUGH SUCH EFFORTS TO RECEIVE AN OPINION ON ITS FINANCIAL
STATEMENTS WHEN IT DOES NOT HAVE SYSTEMS THAT CAN PROVIDE
COMPLETE, CONSISTENT, RELIABLE, AND TIMELY INFORMATION FOR
MANAGERS TO USE THROUGHOUT THE YEAR IN MAKING DECISIONS.

RESULTS OF USAID FISCAL YEAR 2000 AUDIT

DURING THE LAST 18 MONTHS, USAID HAS MADE PROGRESS TOWARD
RESOLVING SOME LONGSTANDING PROBLEMS WITH ITS FINANCIAL
MANAGEMENT SYSTEMS AND HAS COMMITTED SIGNIFICANT RESOURCES FOR
ADDITIONAL IMPROVEMENTS NECESSARY FOR PREPARING AUDITABLE
FINANCIAL STATEMENTS, AS WELL AS, INFORMATION TO USE FOR
MANAGING OPERATIONS. DESPITE THESE EFFORTS, USAID STILL FACED
SOME IMMEDIATE CHALLENGES AT THE ONSET OF OUR AUDIT OF ITS
FISCAL YEAR 2000 FINANCIAL STATEMENTS. THESE CHALLENGES
INCLUDED:

    •    CORRECTING OUTSTANDING FINANCIAL MANAGEMENT SYSTEM
    DEFICIENCIES;

    •    IMPLEMENTING AN INTEGRATED FINANCIAL MANAGEMENT
    SYSTEM;

    •    RECONCILING FINANCIAL DATA, AND

    •    PROCESSING, RECORDING, AND REPORTING FINANCIAL
    INFORMATION IN ACCORDANCE WITH GENERALLY ACCEPTED
    ACCOUNTING PRINCIPLES.

BECAUSE USAID HAD EMBARKED ON SIGNIFICANT EFFORTS TO IMPROVE THE
SYSTEMS THAT PRODUCE ITS FINANCIAL STATEMENTS BUT HAD NOT FULLY
IMPLEMENTED ALL RELATED CORRECTIVE ACTIONS, THE OIG AND USAID’S
MANAGEMENT AGREED THAT IT WOULD BE MOST BENEFICIAL TO FOCUS OUR
AUDIT EFFORTS ON THE FIVE AREAS THAT WERE PROHIBITING USAID FROM
GETTING AN OPINION. THE FIVE AREAS WERE:

    •    COMPLYING WITH FFMIA REQUIREMENTS SUCH AS COMPUTER
    SECURITY AND THE USE OF FEDERAL ACCOUNTING STANDARDS;

    •    RECONCILING AND MANAGING USAID’S FUND BALANCE WITH THE
    U.S. TREASURY;

    •    REPORTING CREDIT PROGRAM RECEIVABLES;

•   ACCOUNTING FOR ADVANCES TO GRANTEES, AND;

    •    CALCULATING AND REPORTING ACCOUNTS PAYABLE AND ACCRUED
    EXPENSES.

BY FOCUSING ON THESE FIVE AREAS, RATHER THAN PERFORMING
SUBSTANTIVE TESTING ON WHAT WE AGREED WAS UNRELIABLE FINANCIAL
INFORMATION, THE OIG AND MANAGEMENT OFFICIALS CONCLUDED THAT
USAID WOULD BE IN A BETTER POSITION TO ESTABLISH RELIABLE
BEGINNING BALANCES FOR FUTURE STATEMENTS TO BE AUDITED AND
PROGRESS TOWARDS HAVING A SYSTEM CAPABLE OF HELPING MANAGERS
MANAGE.
WE WERE UNABLE TO EXPRESS AN OPINION ON USAID’S CONSOLIDATED
FINANCIAL STATEMENTS FOR THE FISCAL YEAR ENDING SEPTEMBER 30,
2000. WE DISCLAIMED AN OPINION BECAUSE USAID HAD NOT IMPLEMENTED
ADEQUATE FINANCIAL MANAGEMENT SYSTEMS TO PRODUCE COMPLETE,
CONSISTENT, TIMELY, AND RELIABLE FINANCIAL STATEMENTS.
OTHER FACTORS THAT LED TO OUR DECISION TO DISCLAIM AN OPINION
WERE THAT USAID MADE SOME MATERIAL CHANGES IN ITS ACCOUNTING
PROCESSES AFTER THE CLOSE OF FISCAL YEAR 2000.

AN EXAMPLE OF SUCH A CHANGE WAS USAID’S METHODOLOGY FOR
CALCULATING AND REPORTING ACCOUNTS PAYABLE. USAID’S CHANGE
RESULTED IN A MATERIAL ADJUSTMENT $2.3 BILLION BEING MADE TO
ITS FINANCIAL STATEMENTS LATE IN DECEMBER 2000. BECAUSE THE
AGENCY’S AUTOMATED SYSTEMS COULD NOT BE USED TO DEVELOP
INFORMATION THAT THE OIG COULD USE TO VALIDATE THE ADJUSTMENT,
WE DID NOT HAVE SUFFICIENT SUPPORT TO DETERMINE WHETHER THE
ADJUSTMENT WAS RELIABLE.
IN ANOTHER INSTANCE, USAID CONTRACTED WITH THE U.S. DEPARTMENT
OF HEALTH AND HUMAN SERVICES (DHHS) FOR ACCOUNTING SERVICES FOR
ITS ADVANCES TO GRANTEES. DURING THE LATER STAGES OF THE FISCAL
YEAR, DHHS EXPERIENCED SYSTEM PROBLEMS. AS A RESULT, USAID’S
MANAGEMENT HAD TO DEVELOP A METHODOLOGY TO ESTIMATE THE BALANCES
FOR THE ACCRUED EXPENSES RELATED TO ADVANCES TO GRANTEES. THIS
RESULTED IN A MATERIAL YEAR-END ADJUSTMENT $767 MILLION BEING
MADE LATE IN DECEMBER 2000. OF THE $767 MILLION ADJUSTMENT, THE
OIG WAS ABLE TO VERIFY $300 MILLION TO SUPPORTING DOCUMENTATION.
HOWEVER, BECAUSE OF THE LACK OF SUFFICIENT SUPPORTING
DOCUMENTATION, WE WERE UNABLE TO EVALUATE THE REASONABLENESS OF
$467 MILLION OF THE $767 MILLION ADJUSTMENT.

THE UNCORRECTED SYSTEM DEFICIENCIES AND MATERIAL ADJUSTMENTS
CREATED A CONSEQUENTIAL RISK THAT THE FINANCIAL STATEMENTS COULD
CONTAIN MATERIAL MISSTATEMENTS. USAID MANAGEMENT CONCURRED WITH
THE AUDIT FINDINGS AND AGREED TO ELIMINATE THESE PROBLEMS. WE
ARE CONTINUING TO WORK WITH USAID MANAGEMENT TO EVALUATE THEIR
EFFORTS IN TAKING CORRECTIVE ACTIONS.
USAID’S CORRECTIVE ACTIONS TO DATE

TO CORRECT THE DEFICIENCIES REPORTED, USAID DEPLOYED A CORE
FINANCIAL ACCOUNTING COMPONENT OF A NEW FINANCIAL MANAGEMENT AND
ACCOUNTING SYSTEM IN DECEMBER 2000. THIS COMMERCIAL OFF-THE–
SHELF ACCOUNTING SYSTEM, PHOENIX, REPLACED KEY ASPECTS OF THE
AGENCY’S UNRELIABLE FINANCIAL MANAGEMENT SYSTEM CALLED THE NEW
MANAGEMENT SYSTEM (NMS).
IN ADDITION, OUR AUDIT OF THE FISCAL YEAR 2000 FINANCIAL
STATEMENTS SHOWED THAT USAID HAS IMPROVED ITS ABILITY TO
RECONCILE AND MANAGE ITS FUND BALANCE WITH THE U.S. TREASURY AND
REPORT RELIABLE BALANCES FOR ITS CREDIT PROGRAM RECEIVABLES.

AS NOTED EARLIER, USAID ESTABLISHED, IN LATE DECEMBER 2000, A
NEW METHODOLOGY FOR ESTIMATING ITS ACCOUNTS PAYABLE AND ACCRUED
EXPENSES RELATED TO ADVANCES TO GRANTEES AT YEAREND. I AM
PLEASED TO NOTE THAT DURING THE INITIAL PHASES OF THE FISCAL
YEAR 2001 AUDIT, THE OIG HAS ANALYZED THE ADVANCE-RELATED
ACCRUED EXPENSES ESTIMATING METHODOLOGY AND FOUND IT TO BE
ADEQUATE.
REGARDING THE PROBLEMS NOTED IN FISCAL YEAR 2000 WITH THE
ACCOUNTS PAYABLE ESTIMATES, THE OIG IS CURRENTLY EVALUATING
USAID’S PROCEDURES TO DETERMINE THE REASONABLENESS OF ITS
ESTIMATING METHODOLOGIES.
WHAT REMAINS TO BE DONE

DESPITE HAVING IMPLEMENTED PHOENIX IN HEADQUARTERS, THERE
REMAINS WORK TO BE DONE. USAID NEEDS TO SUCCESSFULLY COMPLETE
THE PHOENIX IMPLEMENTATION WORLDWIDE, COMPLETE FINAL ACTIONS ON
OUTSTANDING AUDIT RECOMMENDATIONS, AND ADDRESS SEVERAL SPECIFIC
ISSUES WITH MATERIAL LINE ITEMS ON ITS FINANCIAL STATEMENTS.

ALONG WITH DEPLOYING PHOENIX, USAID IS FACING THE CHALLENGES
THAT TYPICALLY OCCUR WHEN IMPLEMENTING NEW ACCOUNTING SYSTEMS.
PHOENIX IS NOT YET FULLY OPERATIONAL. IN THE SHORT-TERM, USAID
NEEDS TO 1) COMPLETE THE TESTING AND DEPLOYMENT OF THE
INTERFACES LINKING THE MISSIONS AND PROCUREMENT DATA TO THE CORE
FINANCIAL SYSTEM, 2) ELIMINATE SEVERAL KEY OPERATIONAL ELEMENTS
PERFORMED OUTSIDE THE CORE FINANCIAL SYSTEM (SUCH AS MAKING
PAYMENTS AND GENERATING FUND CONTROL REPORTS), AND 3) MIGRATE
THE BEGINNING BALANCES FOR FISCAL YEAR 2001.

TO DATE, USAID HAS NOT ENTERED IN THE WASHINGTON HEADQUARTERS
ACCOUNTING RECORDS ANY FINANCIAL INFORMATION RELATED TO ITS
OVERSEAS OPERATIONS FOR FISCAL YEAR 2001. OVERSEAS OPERATIONS
ARE RECORDED AND MAINTAINED IN THE MISSION ACCOUNTING AND
CONTROLS SYSTEMS (MACS). USAID DOES NOT PLAN TO ENTER THE
INFORMATION IN THE WASHINGTON HEADQUARTERS ACCOUNTING RECORDS
UNTIL AN ELECTRONIC INTERFACE FOR FIELD DATA IS DEPLOYED
CURRENTLY SCHEDULED FOR LATE IN THIS FISCAL YEAR (2001). THIS
WILL HAVE A CRITICAL IMPACT ON THE FISCAL YEAR 2001 AUDIT
BECAUSE WE CANNOT FULLY ASSESS RISKS ASSOCIATED WITH THE
ELECTRONIC INTERFACE UNTIL ITS DEPLOYMENT. FURTHER, MACS IS NOT
CURRENTLY SCHEDULED FOR REPLACEMENT UNTIL FISCAL YEAR 2003. THIS
WILL CONTINUE TO IMPACT FUTURE AUDITS UNTIL MACS IS REPLACED
WITH THE WORLDWIDE IMPLEMENTATION OF PHOENIX.

USAID ALSO NEEDS TO ADDRESS THE 28 OIG RECOMMENDATIONS THAT WERE
NOT BEEN FULLY COMPLETED AS OF SEPTEMBER 30, 2000. FOR EXAMPLE:

    •    IN FISCAL YEAR 1997, WE RECOMMENDED THAT THE ASSISTANT
    ADMINISTRATOR FOR MANAGEMENT DEVELOP AND IMPLEMENT AN
    EFFECTIVE COMPUTER SECURITY PROGRAM.

    •    IN OUR AUDIT OF THE FISCAL YEAR 1998 FINANCIAL
    STATEMENTS WE NOTED THAT THE CHIEF FINANCIAL OFFICER LACKED
    THE AUTHORITY CALLED FOR IN THE CFO ACT. WE RECOMMENDED
    ELIMINATING THE FRAGMENTED AND UNCLEAR ORGANIZATIONAL
    RESPONSIBILITIES THAT HINDERED USAID’S EFFORTS TO IMPLEMENT
    MODERN FINANCIAL MANAGEMENT SYSTEMS THAT HAVE ADEQUATE
    COMPUTER SECURITY AND COMPLY WITH THE FEDERAL ACCOUNTING
    STANDARDS.
    •    IN A REPORT ISSUED DECEMBER 1998, WE RECOMMENDED THAT
    THE DIRECTOR OF INFORMATION RESOURCE MANAGEMENT STRENGTHEN
    ACCESS AND SOFTWARE CONTROLS BY DEVELOPING AND IMPLEMENTING
    STANDARDS FOR ACCESS AND SYSTEM SOFTWARE INSTALLATIONS AND
    MAINTENANCE.

MANAGEMENT HAS CONCURRED WITH THESE RECOMMENDATIONS. AS OF
SEPTEMBER 30, 2000 USAID HAD NOT TAKEN FINAL ACTION.
FINALLY, USAID MUST BE ABLE TO ESTABLISH BEGINNING BALANCES FOR
MATERIAL LINE ITEMS ON ITS FINANCIAL STATEMENTS FOR THE OIG TO
OPINE ON THE FISCAL YEAR 2001 FINANCIAL STATEMENTS. WE ARE
CURRENTLY WORKING WITH USAID TO REVIEW THESE BEGINNING BALANCES
FOR OUR FISCAL YEAR 2001 AUDIT.
CONCLUSION

THE CHALLENGES FACED BY USAID ALSO PRESENT CHALLENGES TO THE OIG
IN PLANNING OUR AUDIT OF THE FISCAL YEAR 2001 FINANCIAL
STATEMENTS. AT THIS TIME, WE CANNOT BE CERTAIN WHAT PROBLEMS MAY
ARISE AS USAID CONTINUES TO ADDRESS ITS FINANCIAL MANAGEMENT
PROBLEMS AND COMPLETE THE DEPLOYMENT OF THE PHOENIX SYSTEM AND
ITS NECESSARY INTERFACES.

WHILE USAID LOST VALUABLE TIME DURING THE PERIOD WHEN IT WAS
ATTEMPTING TO IMPLEMENT THE NMS, CONSIDERABLE PROGRESS HAS BEEN
MADE SINCE A DECISION WAS MADE TO DEPLOY PHOENIX. IN ADDITION,
USAID’S FINANCIAL MANAGERS HAVE SHOWN AN INCREASINGLY STRONG AND
SUPPORTIVE ATTITUDE TOWARDS THE FINANCIAL STATEMENT AUDIT AND
THE VALUE THAT IT BRINGS TO THEIR SYSTEMS. SPECIFICALLY, THE NEW
ADMINISTRATOR, WHO WAS SWORN IN JUST LAST WEEK, HAS SAID THAT
IMPROVING THE AGENCY’S MANAGEMENT SYSTEMS WILL BE HIS PRIMARY
FOCUS IN HIS FIRST YEAR.
WE ARE CURRENTLY HOPEFUL THAT USAID CAN DEVELOP DURING FISCAL
YEAR 2001 FINANCIAL STATEMENTS ON WHICH WE CAN RENDER AN
OPINION.

WE WOULD BE PLEASED TO ANSWER ANY QUESTIONS THAT YOU MAY HAVE AT
THIS TIME.




Drafting Office: Audit/FA

Filed:
X:\IGPUB\DOCS\HEARINGS.2001\May 8, 2001\Testimony\GMRA
TESTIMONY.ELM.504.doc
